HHS/OIG, Audit -"Audit of Massachusetts General Hospital Organ Acquisition Costs for the Period October 1, 2000
Through September 30, 2002"(A-01-04-00516)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Massachusetts General Hospital Organ Acquisition Costs for the Period October 1, 2000 Through September 30,
2002" (A-01-04-00516)
December 21, 2004
Complete
Text of Report is available in PDF format (638 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Massachusetts General Hospital did not comply with Medicare
law, regulations, and guidelines for claiming organ acquisition costs in the preparation of its Medicare Part A cost
report and received excess Medicare reimbursement for organ acquisition activities.  Specifically, the hospital
did not have systems in place to accumulate certain costs of organ acquisition separate from the costs of post-transplant
and other hospital activities, and reduce laboratory charges and related-party charges to cost on its Medicare cost report.  As
a result, the hospital claimed $1,041,718 in unallowable costs, resulting in Medicare overpayments of $489,618, and $2,299,519
in unsupported cost, resulting in Medicare overpayments of $949,296.